National Academy of Public
Administration Assessment
Contributed to Office of Inspector
General Transformation




               Report No. OIG-SP-2013-005   February 14, 2013
(This page intentionally left blank)
   NATIONAL RAILROAD
   PASSENGER CORPORATION
                                                 Office of Inspector General


          National Academy of Public Administration
       Assessment Contributed to OIG Transformation

The Amtrak Office of Inspector General (OIG) completed a comprehensive
transformation effort that has positioned the office to function as a mainstream OIG and
ultimately achieve its goal of being a model OIG. Prior to the appointment of the
current Inspector General (IG) in November 2009, the Amtrak OIG was not functioning
as a mainstream OIG.


For example, audits were not always performed in accordance with Generally Accepted
Government Auditing Standards, investigative operations had never been peer
reviewed, and the results of work were not always publicly available. In many
instances, the OIG inappropriately performed Amtrak management functions and
failed to conduct activities traditionally performed by other OIGs such as overseeing
the audit  of  Amtrak’s  financial statements. In addition, Amtrak officials inappropriately
controlled OIG hiring decisions and had unfettered access to all OIG email accounts.


The current IG initiated a transformation effort during FY 2010, with a goal of taking
actions that would ultimately establish the office as a model IG. That effort was a
complex and challenging undertaking as it required a change to an organizational
culture that had developed over 20 years. In May, 2010, the IG engaged the National
Academy of Public Administration (NAPA) to assist in the transformation by making
an  independent  assessment  of  the  OIG’s organization. NAPA had conducted similar
OIG organizational assessments. Those engagements made NAPA uniquely qualified to
assess  the  Amtrak  OIG’s  operations  and  identify  business  process  improvements  to  
help it become first a mainstream and ultimately a model OIG.
                                                                                                      2
                                  Amtrak Office of Inspector General
                National Academy of Public Administration Assessment Contributed to
                             Office of Inspector General Transformation
                           Report No. OIG-SP-2013-005, February 14, 2013

NAPA used an expert panel of fellows and a project team to conduct the assessment.
The fellows and team worked closely with the IG to help advance the strategic goal of
becoming  a  model  OIG  by  identifying  the  Amtrak  OIG’s  core  organizational  strengths  
and weaknesses. NAPA’s  methodology included soliciting information from: OIG
senior  leadership  and  staff;  Amtrak’s  Board  of  Directors  and  senior  executives;  and,  
congressional staff. The team also obtained information from other OIGs on best
practices used by their organizations to enhance operations. NAPA provided a written
report of its assessment on August 31, 2010.1


The report contained observations and recommendations focused on the following
eight areas where the Amtrak OIG could enhance its operations.


        Internal Communications
        External Communications
        Work Planning and Prioritization
        Quality and Timely Work Processes
        Independence
        Policy Management and Updates
        Human Capital Management
        Performance Measures

For each area, NAPA defined a desired future state. The report then summarized
Amtrak  OIG’s  strengths  and  weaknesses  in  relation  to  the  future  state,  and  
recommended immediate next steps as well as longer term recommendations to achieve
that future state. Many  of  the  report’s  individual  recommendations  addressed  the need
to revise and improve policies and work processes to make them consistent with
standards and best practices within the OIG community. The report clearly stated that
becoming a model OIG would require a change in organizational culture and that
multiple interim steps would have to occur to achieve the desired state.



1
 http://www.amtrakoig.gov/sites/default/files/reports/Amtrak_OIG_Draft_Org_Assessment_Final_memoappendic
es_083110.pdf
                                                                                                       3
                                  Amtrak Office of Inspector General
                National Academy of Public Administration Assessment Contributed to
                             Office of Inspector General Transformation
                           Report No. OIG-SP-2013-005, February 14, 2013

The report provided the OIG with a basis for developing specific prioritized action
plans to improve its processes, policies, and management practices. In developing
actions plans, OIG senior leadership also considered the results of other transformation
related reviews, including:


          internal Quality Assurance Reviews of the Offices of Investigations and Audits;
          internal reviews of the structure and staffing of all OIG component offices
          (Investigations, Inspections and Evaluations (I&E), Audits, and Administrative
          Services—now Mission Support); and
          external reviews of OIG independence mandated by the Consolidated
          Appropriations Act of 2010.


These reviews identified issues and recommendations related to the eight areas
discussed by NAPA. A consistent theme among the reviews was that the skill sets of
many OIG employees did not match those required of a high-performing OIG.
Therefore, considering the results collectively helped ensure that the plans for
enhancing operations were comprehensive.


The plans,2 completed in April 2011, were developed by teams composed of volunteers
from  the  OIG’s  senior  leadership  and  staff  representing a diverse cross-section of
function, location, and tenure. The  team’s  multi-level and cross functional
representation helped foster a common understanding of the rationale for enhancing
operations and ensured that the plans considered a wide range of perspectives in
addressing the issues. NAPA staff assisted some of the teams in developing the plans
and this in turn helped OIG staff strengthen their team building and communication
skills.




2
 http://www.amtrakoig.gov/sites/default/files/reports/napa_recommendations_memo_and_attachments-4-8-
11.pdf
                                                                                            4
                                Amtrak Office of Inspector General
              National Academy of Public Administration Assessment Contributed to
                           Office of Inspector General Transformation
                         Report No. OIG-SP-2013-005, February 14, 2013

The OIG formally started implementing the plans in May 2011. However, when
practical, the OIG took many actions to improve communications, develop policies and
processes, and ensure independent operations even as the plans were being developed.
Some actions, such as addressing issues with software tools, were implemented
relatively quickly by relevant process owners. Others, such as improving the work
planning process and developing performance measures, required a concerted effort by
leaders and staff from across the organization and thus took more time to develop and
implement.


The action plans have now been implemented and, as discussed in the following
sections, the Amtrak OIG has achieved the desired future state for each of the eight
areas identified in the NAPA assessment. The Amtrak OIG is committed to achieving its
goal of operating as a model OIG and fostering a culture of continuous operational
improvement.


INTERNAL COMMUNICATIONS

NAPA found that, historically, the Amtrak OIG culture inhibited information-sharing,
and that limited communication among component offices fed an atmosphere of rumor,
suspicion, and frustration. Field offices were not well integrated into the operations and
had only limited communications or interaction with headquarters employees.


Desired Future State: Amtrak OIG is an organization with effective internal
communication strategies that allow all OIG staff to be informed and invested in
achieving a high-performance, high-accountability organizational mission.


The OIG has made significant advancements in strengthening internal communications
and in developing a culture of transparency and information-sharing. For example, OIG
leadership regularly provides staff with detailed information on the status of activities
to enhance operations, communicates about OIG work efforts, and recognizes successes
and milestones. In response to the latest staff survey (July 2012), 60 of the 72 (85 percent)
respondents agreed or strongly agreed that they receive adequate and timely
                                                                                            5
                               Amtrak Office of Inspector General
             National Academy of Public Administration Assessment Contributed to
                          Office of Inspector General Transformation
                        Report No. OIG-SP-2013-005, February 14, 2013

information from OIG leaders. The survey resulted from an action plan
recommendation.


Another critical initiative in improving internal communications was the reorganization
of the OIG component offices. The reorganization among other things, eliminated
stovepipes by ensuring that field offices were well integrated into OIG operations. The
reorganization also resulted in the establishment of additional management positions
and changes in the mix of skill sets of managers and staff. Consequently,
communication within and across the component offices has improved and staff work
as teams that span geographic locations. This change has helped the OIG to generate
objective and sophisticated products that add value to Amtrak and external
stakeholders, including the Department of Transportation and Congress.


Other initiatives in internal communications that have been institutionalized to align
the OIG with the desired future state include:


      biannual meetings in which all staff participate in person or by video technology
      to hear directly from OIG senior management and to ask questions of, and give
      feedback to, management;
      weekly senior leadership meetings to discuss current events and share
      information;
      regularly scheduled meetings between the cognizant assistant inspector general
      (AIG) and all staff (in person or electronically) to share information;
      separate biweekly meetings between the Inspector General/Deputy Inspector
      General (DIG) and each of the AIGs to  discuss  the  component  office’s  ongoing  
      and planned work;
      a monthly newsletter prepared by staff with input from all OIG offices that
      discusses professional and personal issues of common interest;
      a photo directory of all OIG personnel to increase familiarity with staff at all
      locations; and
                                                                                                 6
                                   Amtrak Office of Inspector General
                 National Academy of Public Administration Assessment Contributed to
                              Office of Inspector General Transformation
                            Report No. OIG-SP-2013-005, February 14, 2013

       a quarterly report summarizing ongoing and recently completed audit,
       evaluation, and investigative work to share information among component
       offices



EXTERNAL COMMUNICATIONS

NAPA found that the OIG did not have an established process with standardized
timeframes for providing updates to stakeholders. All stakeholders indicated that they
wanted to know how and when the OIG would communicate with them going forward.
Of particular importance was establishing clear expectations about interaction during
audits and other OIG engagements. In addition, many stakeholders at Amtrak said they
and their staffs would benefit from a clearer understanding of the roles and
responsibilities of an independent OIG.

Desired Future State: Amtrak OIG has constructive relationships with Amtrak,
Congress, and its other external stakeholders that enable it to gather and share
information in order to conduct proactive and timely communications while
maintaining independence and supporting its mission.


The  OIG  has  significantly  enhanced  communication  with  Amtrak’s  Board  of  Directors,  
Amtrak executives, Congress, and other external stakeholders by instituting policies
and processes to ensure transparency and information-sharing. For example, the OIG
provides Amtrak Board members, executives, and congressional contacts with a
quarterly report summarizing ongoing and recently completed audit, evaluation, and
investigative work. Several  members  of  Amtrak’s Executive Committee noted that the
report provided them with unprecedented insight into OIG activities and helped their
understanding of the value of an independent OIG.


A critical initiative by the OIG to improve external communication was the
development of a policy for conducting audits and evaluations that established a
standardized process for communicating with Amtrak officials at specified timeframes
                                                                                                    7
                                      Amtrak Office of Inspector General
                    National Academy of Public Administration Assessment Contributed to
                                 Office of Inspector General Transformation
                               Report No. OIG-SP-2013-005, February 14, 2013

during all phases of a review. The process includes the opportunity for management to
review and provide written comments on all draft reports, a practice that was not
previously in place.  Those  comments  are  included  in  the  OIG’s  final  report. All final
reports are provided to external stakeholders, including congressional contacts, and are
posted on the OIGs website, the content of which has been revised and updated.


Further, the OIG Strategic Plan for FY 2013--20173 includes  a  goal  to  “communicate  
openly and work professionally with, but independently from, Amtrak management.”
Strategies for achieving this goal include enhancing relationships with Congress,
Amtrak’s Board Members and executives, through timely, proactive communications
with stakeholders about critical issues and work products. An annual written survey
was developed to assist in measuring the OIGs progress in achieving this goal. Eighty-
nine percent of the external stakeholders responding to the first survey agreed that the
Amtrak OIG was accomplishing this goal.


Other initiatives that have been institutionalized to align the office with the desired
future state include:


           a proactive congressional and public affairs program to ensure transparency and
           information sharing with congressional staff and other external stakeholders;
           an Amtrak OIG 101 briefing to clearly define and communicate OIG roles and
           responsibilities to Amtrak executives, employees, and contractors;
           a fraud awareness briefing for Amtrak executives, employees, and contractors to
           enhance their understanding of potential fraud schemes and fraud indicators
           that should be referred to the OIG;
           closed sessions among the IG/DIG and the Board of Directors during each Board
           meeting to discuss Amtrak and OIG programs and operations and share
           information about potential areas of risk from the governance perspective;
           IG/DIG participation  in  the  Board  of  Directors’  Audit  and  Finance  Committee  
           Meetings;

3
    http://www.amtrakoig.gov/sites/default/files/reports/strategic
                                                                                                     8
                                 Amtrak Office of Inspector General
               National Academy of Public Administration Assessment Contributed to
                            Office of Inspector General Transformation
                          Report No. OIG-SP-2013-005, February 14, 2013

       monthly meetings between the IG/DIG and the Amtrak CEO to discuss current
       events and share information;
       monthly meetings of the Audits and I&E AIGs with the Amtrak liaison to discuss
       ongoing work and recommendation follow-up; and
       a standardized, unique, logo that is used on all OIG products to support a clear,
       consistent brand image.


WORK PLANNING AND PRIORITIZATION

The NAPA report noted that the OIG had not centrally prioritized or coordinated its
work  to  ensure  alignment  with  the  OIG’s  strategic  direction  and  to  provide  maximum  
value and impact to Amtrak. While the OIG developed a strategic plan in early 2010, it
still needs a process to objectively identify and prioritize Amtrak programs as potential
subjects of audit, investigation, inspection, or evaluation.


Desired Future State: Amtrak OIG has an annual work planning and prioritization
process that engages stakeholders in identifying opportunities for improvement and
risk reduction. This process identifies high-value work and enables OIG to more
effectively allocate its resources to this work.

The OIG has established and implemented a process to consistently identify high-value
topics for audit and evaluation. The five-step annual work planning process was
developed using best practices and various planning processes followed by other OIGs.
The process is owned by the senior leadership team, includes OIG staff and stakeholder
input, and applies risk factors and criteria to prioritize potential subjects for audit or
evaluation. The  process  assists  the  senior  leadership  team  in  ensuring  that  the  OIG’s  
financial and human resources are aligned with its  and  Amtrak’s  strategic  goals.


The process was used to develop the OIG’s Annual Audit, Inspection and Evaluation
Plan for Fiscal Year 2013. This plan was prepared with considerable input from OIG
stakeholders, including congressional staff, Amtrak Board members, and Amtrak senior
managers. It is organized around eight focus areas (e.g. Governance, Acquisition) and
                                                                                            9
                               Amtrak Office of Inspector General
             National Academy of Public Administration Assessment Contributed to
                          Office of Inspector General Transformation
                        Report No. OIG-SP-2013-005, February 14, 2013

describes, in each of these areas, recently published reports, on-going work, the work
planned to start in FY 2013, and potential areas of focus beyond FY 2013.


The five-step planning process is summarized below.


      Audit Universe. An unconstrained universe of potential topics within broad
      focus areas for audits and evaluations is developed. The topics come from a
      variety of internal and external sources such as legislation, stakeholder requests,
      strategic and business plans, investigative referrals, prior audit follow-ups, data
      analytics, and proposals from OIG leadership and staff members.
      Risk Assessment. Topics within each focus area will be initially ranked based on
      Total Risk. Total Risk is determined by considering both Inherent Risk and
      Control Risk. For each topic, inherent risk is assessed based on its size, scope,
      significance,  complexity,  change  magnitude,  and  alignment  with  Amtrak’s  
      enterprise risk management priorities. Control risk is assessed based on the
      results of prior audits and state of internal controls/management effectiveness in
      the given topic area. All risks are ranked as high, medium, or low, initially by the
      topic proposal’s submitter.
      Prioritization. The AIGs for Audits and I&E apply their judgment to rank topics
      within each focus area by taking into account stakeholder interest, sense of
      importance, urgency/timeliness, and project mix. The IG and DIG review the
      ranked topics, and then apply their own judgment by taking into account the
      overall value and impact of the given topic area. These rankings provide an
      unconstrained plan.
      Constraints. The IG/ DIG with input from AIGs make an assessment of the
      effort required to audit or evaluate a given topic area, and the constraints to
      successfully accomplish the project , such as availability of staff, funds for
      contractors, skill needed, and time available. The final topic selections provide
      the basis for a constrained plan, which is then shared with major stakeholders for
      their feedback.
                                                                                          10
                                Amtrak Office of Inspector General
              National Academy of Public Administration Assessment Contributed to
                           Office of Inspector General Transformation
                         Report No. OIG-SP-2013-005, February 14, 2013

       Audit Plans. Finally, short-term annual plans, and long-term five-year plans
       when necessary, are developed and communicated internally with staff, and
       externally with Amtrak officials, stakeholders, and the general public.


Lastly, during FY 2012, the OIG published a revised Strategic Plan for Fiscal Years 2012-
2017. The revised plan was developed following best practices that were identified in a
2010 OIG review of models and practices widely used in Strategic Planning. The intent
in revising the plan was to articulate the OIG vision in the context of its overarching
goal to operate as a model OIG. The plan establishes goals, strategies, and performance
indicators to achieve the vision and assess progress. The plan supports Amtrak’s  
Strategic Plan, particularly its goal of attaining a standard of financial and
organizational excellence.


QUALITY AND TIMELY WORK PROCESSES

Assessment data indicated that the lack of documented and well-understood processes,
tools, and deadlines resulted in misaligned resources, inconsistent reporting formats,
and inadequate accountability. The NAPA report also identified a strong desire among
OIG staff for processes and structure, and noted that actions were underway to develop
policy and process guidance and to provide training.


Desired Future State: Amtrak OIG consistently follows commonly accepted work
practices and standards, both within functional areas and across locations. Work
adheres to established quality standards and, as appropriate, is accessible and
transparent to OIG staff.


The OIG has established and is following disciplined policies and procedures for
conducting audit, evaluation, and investigative work in accordance with standards
prescribed by the Government Accountability Office (GAO) and the Counsel of
Inspectors General on Integrity and Efficiency (CIGIE). The policies for audits,
evaluations, and investigations were completely revised to ensure compliance with
applicable standards. All staff attended training on the revised policies to gain a
                                                                                          11
                                Amtrak Office of Inspector General
              National Academy of Public Administration Assessment Contributed to
                           Office of Inspector General Transformation
                         Report No. OIG-SP-2013-005, February 14, 2013

common understanding of the requirements for conducting OIG work and developing
products.


During FY 2013, the Offices of Audits and Investigations will be peer-reviewed by
another OIG that will assess the adequacy and implementation of Amtrak OIGs polices
in the context of standards prescribed by GAO and CIGIE. Upon successful completion
of the Investigations peer review, the OIG will request Attorney General Approval to
implement statutory law enforcement authority under the IG Act, as amended.


One of the early accomplishments in improving work processes was addressing
outstanding issues with project management software tools (TeamMate, Amtrak
Investigations Management System). The tools, widely used in the accountability
community, provide disciplined processes for documenting audit, evaluation, and
investigative work. However, several reviews of the OIG including NAPA’s  had  
identified incomplete and inconsistent use of the tools by the OIG. The OIG has
upgraded the tools, developed guidance, provided training, and staff are consistently
using the tools to document their work.


Other initiatives that have been institutionalized to align the office with the desired
future state include:


       creating and staffing an Office of Quality Assurance and Internal Affairs to
       provide an independent internal assessment of compliance with established
       policies;
       instituting a new process for conducting independent referencing of audit and
       evaluation products;
       developing a Quality Control Checklist for audit and evaluation products;
       conducting independent Quality Assurance Reviews of audit and evaluation
       products;
       regularly updating staff on policy development and revisions;
                                                                                           12
                                Amtrak Office of Inspector General
              National Academy of Public Administration Assessment Contributed to
                           Office of Inspector General Transformation
                         Report No. OIG-SP-2013-005, February 14, 2013

       revising the OIG Hotline reporting protocols, enhancing staff skills through
       training, and conducting supervisory review to ensure proper handling of
       hotline reports; and
       enhancing coordination between the Offices of Investigations, Audits, and
       Inspections and Evaluations, by sharing information on areas of mutual interest


Lastly, the OIG completed assessments of the structure and staffing of all component
offices (Investigations, Inspections and Evaluations, Audits, and Mission Support). The
assessments resulted in adjustments to staffing levels and changes in the skill sets and
locations of supervisors and staff.


INDEPENDENCE

NAPA reported that recent developments demonstrated a strengthened level of OIG
independence and OIG employees appear to understand that they are no longer able to
participate in Amtrak management decisions. OIG leadership and stakeholders were
concerned that Amtrak did not understand what independence truly entails with
regard to specific authorities and responsibilities, such as human resources decisions
and access to company records. Most stakeholders interviewed stressed the need to
educate Amtrak staff about what an independent, high-performing OIG does, and how
it should interact with them.


Desired Future State: Amtrak OIG has an independent and transparent relationship
with its stakeholders, in accordance with the letter and spirit of the Inspector General
Act and applicable industry standards. Each stakeholder group has a clear
understanding and a practical, applied definition of what it means to have transparent
interactions with an independent OIG.


The OIG has addressed issues that hindered its ability to operate independently within
the spirit of the IG Act and has an independent yet transparent relationship with all key
stakeholders. For example, a closed session among the IG/DIG and the Board of
Directors during each Board meeting provides an excellent forum for transparency
                                                                                           13
                                   Amtrak Office of Inspector General
                 National Academy of Public Administration Assessment Contributed to
                              Office of Inspector General Transformation
                            Report No. OIG-SP-2013-005, February 14, 2013

about the independence of  the  OIG’s  operations  and  its  ongoing,  planned  and  
completed work.


The OIG also enhanced its operational independence by working collaboratively with
Board members and executives to improve their understanding of the IG Act; the roles
and responsibilities of an independent high-performing OIG; and best practice concepts
for interaction used in the accountability community. Other specific actions that the
OIG and Amtrak have taken to eliminate Amtrak-imposed restrictions, inappropriate
Amtrak OIG staff actions, and  ensure  the  OIG’s  operational  independence  include:  


       executing a Memorandum of Understanding with Amtrak to ensure that the OIG
       has independent personnel authority,
       revising Amtrak policies to eliminate instances in which Amtrak officials had
       control or approval authority over OIG resources and activities,
       moving OIG e-mail accounts off Amtrak servers to prevent unauthorized access,
       and
       completing the second phase of a 3-year plan to oversee the independent public
       accountant conducting Amtrak’s  annual  financial  statement  audit.


In addition, the Consolidated Appropriations Act of 2010 included two provisions to
assure Congress the Amtrak OIG was operating independently from the corporation.


The first provision required an independent IG to determine whether the corporation
and the Amtrak OIG had agreed on a set of policies and procedures for interacting with
each other that are consistent with the letter and spirit of the IG Act of 1978 , as
amended. On March 17, 2010, the Farm Credit Administration IG issued a report
concluding that the corporation and the Amtrak IG agreed to a set of policies and
procedures for interacting with each other that is consistent with the letter and the spirit
of the IG Act.
                                                                                               14
                                Amtrak Office of Inspector General
              National Academy of Public Administration Assessment Contributed to
                           Office of Inspector General Transformation
                         Report No. OIG-SP-2013-005, February 14, 2013

The second provision required that 1 year after such determination was made, the
Council of Inspectors General on Integrity and Efficiency (CIGIE) appoint an IG to
evaluate the current operational independence of the Amtrak OIG. The CIGIE
appointed the U.S. Postal Service (USPS) OIG to review the current operational
independence of the Amtrak OIG.


The October 28, 2011 USPS OIG report found that Amtrak OIG and the company had
made operational independence a high priority by undertaking organizational changes
and pursuing independence initiatives, with many of the issues having been resolved.
Nevertheless,  USPS  OIG  found  that  the  company’s  structure  and  management  of  its  
separate hotline had resulted in employee confusion, along with allegations of potential
fraud not being appropriately referred to the OIG for investigation. Of particular
concern, USPS OIG found that the company was not referring potentially fraudulent
employee injury claims to the Amtrak OIG.


In responding to the USPS OIG report, the Amtrak Board of Directors agreed with all
five recommendations and the OIG worked with Amtrak executives to ensure that the
recommendations were implemented. Specific accomplishments include:


       resolving independence issues, including those that the OIG had identified
       separately through its operational improvement initiatives and the specific
       recommendations contained in the USPS OIG report;
       renaming  the  company’s  internal  hotline  as  the  Amtrak  Help-Line for ethics and
       compliance issues to differentiate it from the OIG-managed Fraud Hotline;
       establishing procedures to ensure that the OIG reviews, and has the right of first
       refusal for audit and investigative purposes, every complaint received by the
       Help-Line; and
       agreeing to and implementing new protocols on how the company will report
       potentially fraudulent injury claims by Amtrak employees and others to the OIG.
                                                                                             15
                                Amtrak Office of Inspector General
              National Academy of Public Administration Assessment Contributed to
                           Office of Inspector General Transformation
                         Report No. OIG-SP-2013-005, February 14, 2013

Also in response to the USPS OIG report, Amtrak's President and CEO issued a
memorandum on January 2, 2012, to all Amtrak employees entitled “Cooperation with
OIG.” The  memorandum  outlines  Amtrak  policy  and  employees’  responsibilities  to  
report fraud, waste, and abuse to the OIG and to cooperate with its inquiries.


The OIG Strategic Plan for FY 2013-2017 includes  a  goal  to  “communicate  openly  and  
work professionally with, but independently from, Amtrak management.” Strategies
for achieving the goal include benchmarking and adopting best practices on building
collaborative working relationships used by other OIGs and agencies. An annual
written survey was developed to assist in measuring the OIG’s progress in achieving
this goal. Eighty-six percent of stakeholders agreed or strongly agreed and 89 percent of
OIG employees agreed or strongly agreed to questions on the survey designed to
measure this goal.


The OIG is committed to maintaining its independent yet transparent relationship with
Amtrak and will continue to work with the Board of Directors, executives, and the
Congress, as appropriate, to do so.


POLICY MANAGEMENT AND UPDATES

The NAPA report cited widespread recognition within Amtrak OIG of the need for
standardized, quality policies and guidance, as well as greater structure and consistency
in process. Also, there was no process to actively monitor the external environment for
potential policy updates, a mechanism that high functioning OIGs have in place.
Further, the function, roles, and responsibilities of the Management & Policy group,
(now Mission Support), were unclear, there was a lack of communication and products
coming from that group, and there was a concern that staff skills within the group may
not be adequate.
                                                                                                 16
                                Amtrak Office of Inspector General
              National Academy of Public Administration Assessment Contributed to
                           Office of Inspector General Transformation
                         Report No. OIG-SP-2013-005, February 14, 2013

Desired Future State: Amtrak OIG maintains and applies current, accurate, and
consistent policies across the Office; has a process to monitor changes in the broader
external environment that affects its work practices (e.g., Amtrak policies; Yellow Book
updates; CIGIE information), as well as a mechanism for incorporating those changes
into internal policy; and the office makes all guidance easily accessible to and used
regularly by staff.

The OIG has established and is following disciplined policies and procedures for office-
wide operations and for conducting audit, evaluation, and investigative work. Many of
the  OIG’s  transformation  efforts  related  to  improving  and  filling  gaps  in management
policies have already been discussed under the earlier sections on quality and timely
work processes and independence.


The policy enhancements that have been institutionalized resulted from a leadership-
driven, OIG-wide policy review effort that began in spring 2010. The review objectives
were to:


       establish standardized, quality policies and guidance that provided greater
       structure and consistency in office wide and component group processes, and
       identify all Amtrak policies that subjected OIG activities to review or approval
       by company employees or managers and obtain exemptions or develop separate
       OIG policies, as appropriate.


A standardized process has been established for maintaining, updating, and monitoring
the status of all OIG policies. Weekly reports, provided to all OIG personnel, track the
status of all OIG-wide and component offices policies. Draft policies and/or revisions
are circulated for review and comment by managers in each of the component offices
before they are forwarded to the DIG/IG for review and approval. While the
responsibility for monitoring and updating relevant policy lies with the component
offices, the IG maintains ultimate responsibility and signature authority for OIG polices.
As each new or revised policy is finalized, it is sent via e-mail to all OIG personnel and
                                                                                                17
                                 Amtrak Office of Inspector General
               National Academy of Public Administration Assessment Contributed to
                            Office of Inspector General Transformation
                          Report No. OIG-SP-2013-005, February 14, 2013

posted on an office-wide shared computer drive that houses the OIG Knowledge
Management Library.


The OIG Strategic Plan for FY 2013-2017  includes  a  goal  to  “consistently  follow  efficient,  
disciplined processes.” One of the performance indicators established for the goal is to
assess the percentage of established policies that are annually reviewed and updated as
needed. The target for this metric is 100 percent compliance.


The OIG, as mentioned, completed an assessment of the functions, structure and
staffing for the Office of Management & Policy. The assessment, which identified
deficiencies in the organizational structure and skill sets of managers and staff, defined
a vision for providing administrative services based on best practices in the
accountability community. The transformation of the office (now Mission Support) is
complete, and included redefining the mission, roles, and responsibilities and replacing
staff that did not have the requisite skill sets and experience.


Given the importance of Mission Support to  the  OIG’s  ability  to  perform  its  core  
functions of audit, evaluation, and investigation, the OIG Strategic Plan for FY 2013-
2017  includes  a  goal  to  “create  and  maintain  effective mission-support systems.” An
annual employee written survey measures, among other things, the OIG’s progress in
achieving and maintaining this goal. The first survey conducted in July 2012, provided a
baseline on areas of perceived strengths and weaknesses for use in our continuous
improvement efforts as they relate to Mission Support.


HUMAN CAPITAL MANAGEMENT

The NAPA report emphasized that human capital management is one of the Amtrak
OIG’s  most  pressing  areas  of  concern. Specifically, NAPA and other reviews found that
the skill sets of many incumbent OIG employees were not adequate to perform the
high-value, strategic work required to satisfy the needs of the  OIG’s stakeholders.
Further, there were not enough managers with strong supervisory skills and subject-
matter expertise to train staff to perform the  OIG’s work.
                                                                                             18
                                   Amtrak Office of Inspector General
                 National Academy of Public Administration Assessment Contributed to
                              Office of Inspector General Transformation
                            Report No. OIG-SP-2013-005, February 14, 2013


Desired Future State: Amtrak OIG attracts and retains high-performing employees;
has consistent job titles and job descriptions; and has in place training plans and
performance management plans that link individual performance to OIG objectives.

The Amtrak OIG has significantly enhanced its human capital management practices
and established policies and processes to institutionalize those practices. While this area
was individually reported by NAPA, it is now being addressed as part of the  OIG’s
mission support improvement initiatives. It is discussed separately here for clarity of
the  OIG’s actions specifically related to the NAPA recommendations.


Also, as noted earlier, to address deficiencies noted by NAPA and other reviews, OIG
senior leadership completed assessments of the structure and staffing for all of its
component offices (Investigations, Inspections and Evaluations, Audits, and Mission
Support). The assessments considered a variety of factors including the OIG strategic
goals, budgetary resources, staffing levels, and the skill sets and geographic location of
staff.


All of the assessments identified the need for enhancements that required
reorganization, additional management positions, and improvements in the skill sets of
managers and staff. The OIG has implemented many of the enhancements identified for
each of the component offices. The resulting improvements include:


         reducing the number of job titles and establishing standardized titles within
         component groups and across the OIG;
         revising position descriptions, based on best practices within the accountability
         community, to reflect the skill sets required to perform high-value, strategic
         work;
         removing staff who did not have the requisite skill sets, training, and experience
         for positions that they were encumbering;
         hiring senior investigative managers with extensive experience in Federal law
         enforcement;
                                                                                                   19
                                 Amtrak Office of Inspector General
               National Academy of Public Administration Assessment Contributed to
                            Office of Inspector General Transformation
                          Report No. OIG-SP-2013-005, February 14, 2013

       realigning field offices to more effectively utilize audit and investigative staff;
       and
       establishing an Office of Quality Assurance & Internal Affairs to provide an
       independent mechanism for monitoring compliance with policies and
       procedures.


Another important component of the OIGs initiatives to establish quality and timely
work processes that comply with applicable standards in the accountability community
included an enhanced employee development program. All audit, evaluation, and
investigative staff attended extensive training on the revised policies to obtain a
common understanding of the requirements for conducting OIG work and developing
products. Staff has also received focused training on work planning, evidence,
interviewing, documentation, report writing, Team Mate, data analytics tools and
federal law enforcement requirements and operations.


The  OIG  now  also  participates  in  Amtrak’s  performance  management  system  to  ensure  
consistency in assessment and compensation decisions, but retains independent final
decision making authority. The OIG uses the system to link individual performance and
contributions to organizational success by cascading performance expectations from the
IG’s  goals,  which  align  with  the  OIG’s  strategic  goals,  down  through  the  organization.  
Additionally, the OIG participates in the company’s  program  to  improve  safety  in  all
aspects of its operations.


To ensure that our performance management process is implemented effectively, the
OIG provided senior leaders, managers and staff with formal classroom training to
ensure their understanding of the performance management system, including its
requirements and timelines. The training helped prepare participants for critical
conversations during the process by addressing how to: set effective goals and
expectations; provide feedback and coaching; conduct mid-year and end-year
performance reviews; and handle compensation decisions and conversations.
                                                                                            20
                                     Amtrak Office of Inspector General
                   National Academy of Public Administration Assessment Contributed to
                                Office of Inspector General Transformation
                              Report No. OIG-SP-2013-005, February 14, 2013

Finally, as part of our continuous improvement efforts, the OIG is also in the process of
completing a comprehensive human capital management strategy that will be aligned
with the OIG Strategic Plan for FY 2013-2017. When completed, this initiative will help
ensure structure, consistency, and accountability for the implementation of key human
capital initiatives. For example, the plan will include initiatives for career advancement,
leadership development, and succession planning.


PERFORMANCE MEASURES

The NAPA report cited the importance of measuring performance at both the
organizational and individual levels. The OIG leadership team recognized the
importance of establishing performance metrics that reflect the value of their work.


Desired Future State: Amtrak OIG has performance metrics that reflect the
requirements of the IG Act; meet the expectations of Congress and other stakeholders;
and reflect the value of OIG work to Amtrak.  These  metrics  are  integrated  into  OIG’s  
operating and performance management systems.


The OIG developed performance metrics to assess its progress in achieving the goals
articulated in the OIG Strategic Plan for FY 2013-20174. The  Plan’s  goals,  strategies, and
metrics  support  the  OIG’s  vision  to:


           “operate as a model OIG, generating products that add value. Utilizing modern
           infrastructure and effective support systems, and following efficient, disciplined
           processes that meet the standards of the accountability community, our diverse
           and talented team will work professionally with, but independently from,
           Amtrak management.”




4
    http://www.amtrakoig.gov/sites/default/files/reports/strategic_plan2.pdf
                                                                                       21
                                Amtrak Office of Inspector General
              National Academy of Public Administration Assessment Contributed to
                           Office of Inspector General Transformation
                         Report No. OIG-SP-2013-005, February 14, 2013

The performance metrics were developed using input from a variety of sources
including the views of OIG senior leadership and staff from all of the component
offices, discussions with the Amtrak Board of Directors and executives, and the views of
congressional staff. The OIG also considered measures used by other OIGs, which vary
greatly given that no standard or agreement in the community exists on what measures
are best suited for an OIG.


The fourteen OIG developed metrics include a mixture of quantitative and qualitative
metrics. Specifically:


        Dollar value of recommendations
        Management concurrence with recommendations
        Management implementation of recommendations
        Stakeholders’ agreement that OIG adds value
        Peer review results
        Number of reports issued
        Timeliness of investigations
        Policies reviewed and updated
        Qualifications of OIG staff
        OIG staff motivation
        Diversity of workforce
        Stakeholders’ views of OIG communications/professionalism
        OIG staff views of OIG communications/professionalism
        OIG staff views of Mission Support systems


The OIG also developed a metrics data collection and reporting plan that includes
survey instruments to solicit input for the qualitative factors from employees and
stakeholders. The OIG Strategic Plan for FY 2013-2017 contains baseline data as well as
short- and long-term targets for each of the metrics.
                                                                                                 22
                               Amtrak Office of Inspector General
             National Academy of Public Administration Assessment Contributed to
                          Office of Inspector General Transformation
                        Report No. OIG-SP-2013-005, February 14, 2013

            OIG MISSION AND CONTACT INFORMATION
Amtrak  OIG’s  Mission         The  Amtrak  OIG’s  mission  is  to  provide  independent,  
                               objective  oversight  of  Amtrak’s  programs  and  operations  
                               through audits, inspections, evaluations, and investigations
                               focused  on  recommending  improvements  to  Amtrak’s  
                               economy, efficiency, and effectiveness; preventing and
                               detecting fraud, waste, and abuse; and providing Congress,
                               Amtrak management  and  Amtrak’s  Board  of  Directors  with  
                               timely information about problems and deficiencies relating to
                               Amtrak’s  programs  and  operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.

Reports and Testimony



To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline

and Abuse                      (you can remain anonymous):

                               Web:        www.amtrakoig.gov/hotline

                               Phone:      800-468-5469




Congressional and              E. Bret Coulson, Senior Director

Public Affairs                 Congressional and Public Affairs

                               Mail:       Amtrak OIG

                                           10 G Street, N.E., 3W-300

                                           Washington, DC 20002

                               Phone:      202-906-4134

                               Email:      bret.coulson@amtrakoig.gov
